(#

Case No.: _
IN THE SUPREME’ COURT
OF THE UNITED STATES

20-6796
SIMONA. SANCHEZ,
Petitioner,

.. ,

legal mail
risort on

S. 5.

n

PiRlfi^i
liiUiii

V

SECRETARY OF DEPARTMENT
OF CORRECTIONS, et al.,
Respondent.

FILED
DEC 1 1 2020

QN PETITION M CERTIORARI TO THE UNITED STATES COURT
OF APPEALS,/ FOR THE ELEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI
Respectfully Submitted,

^c5$ei\\''cAT /atToc

TW

, ^L-otL
i

Xat&terAl,

/s/
SIMONA. SANCHEZ
DC#J38918
Florida State Prison - Main Unit
P.O. Box 800
Raiford, Florida 32083

OUESTION(S) PRESENTED
ONE
Whether Trial Counsel failure to object a factual withholding with Guilty
modifications in two (Pharenteticals) of Jury instructions, prevented Juror's factual
assessment that a piece of BB gun “was” or “was not” deadly weapon as additional
charged offense, violated Sanchez Fair Trial and due process rights.
TWO

Whether the Circuit Court below exceeded the limited scope of COA Analysis, in
finding additional non-disputed claims to decide the merits of the case first, rather than
focus on a debatable inquiry only.

1

;

*1*

♦

LIST OF PARTIES
ALL Parties appear in the caption of the Cover Page.

»

i

11

4

TABLE OF CONTENTS
PAGE(S)
*

QUESTIONS PRESENTED

X

LIST OF PARTIES

11

f

«

* • *

TABLE OF CONTENTS

±11

ki

INDEX OF APPENDIXES
*

*

.

.4*

Y.-V11

TABLE OF AUTHORITIES
PETITION FOR WRIT OF CERTIORARI
OPINIONS BELOW

1

I. JURISDICTION

1

II. CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
III. STATEMENTS OF CASE,
IV. REASONS FOR GRANTING THE WRIT.

19-3*1

.M.

V. CONCLUSION

111

INDEX OF APPENDICES
APPENDIX A: June 25. 2020. decision from the United States Court of Appeals,
for the Eleventh Circuit.
APPENDIX B: April 10.2019. decision from the United States District Court,
Middle District of Florida.
APPENDIX C: September 14.2020. Circuit Court Order denying a timely filed
petition for rehearing and rehearing en banc.
APPENDIX D: Excerpts form COA decision in September 18.2019. by the
Circuit Court below granting in part COA.
APPENDIX E: Excerpts from Trial Transcripts, Police Reports, indictment and
information.
APPENDIX F: Excerpts from Sanchez direct appeal attacking his conviction and
sentence.
APPENDIX G: Excerpts from Sanchez Motion for Post-Conviction Relief, State
Response and Sanchez Reply.
APPENDIX H: Excerpts from Amendments to Ground Four, Ten And Eleventh
found in Respondents Section 2254 Exhibits filed in the United States District Court.
APPENDIX I: Excerpts from State Court Order denying Sanchez Motion For
Post-Conviction Relief.
APPENDIX J: Excerpts from Sanchez Appeal to Motion for Post-Conviction
Relief.
APPENDIX K; Excerpts from Habeas Corpus Proceedings under Section 2254.
APPENDIX L:Excerpts from Briefs Pertinent to the Ground allowed to Appeal in COA
order.
APPENDIX M: Excerpts from Sanchez Petition for COA.
APPENDIX N: Excerpt from a timely petition for rehearing and rehearing en banc.

Respectfully Submitted this

11

day of

2020.
/s/
SIMONA. SANCHEZ
DC#J38918
Florida State Prison - Main Unit
P.O. Box 800
Raiford, Florida 32083

i * *

1.V

* »

TABLE OF AUTHORITIES
CASES

PAGE(S)

J>1

Allen v. State, 654 So. 2d 1027 (Fla. 1st DCA 1995)

Apprendi v. New Jersey, 530 U.S. 668, 104 S. Ct. 2348 147 L. Ed. 2d 435 (2000)-*/.'^*^

n

Bear v. Kindler, 558 U.S—130 S. Ct. 612, 175 L. Ed. 2d 417 (2009)
Bennett v. Graterford, 866 F. 3d 268 (3rd Cir. 2018)

...............

Brown v. Wester, R. Co. of Ala., 338 U.S. 294, 70 S. Ct. 105, 94 L. Ed. 100 (1949)....&

3

Bryan v. Warden, 787 F. 3d 253 (11th Cir. Fla. 2013)
Buck v. Davis, 2017 U.S. Lexis 1429

3U35

Cone v. Bell, 556 U.S. 449, 129 S. Ct. 1769, 173 L. Ed. 2d 701 (2009)

ze

Davis v. Strack, 2001 U.S. App. Lexis 23399

30-31

Dixon v. Williams, 2014 U.S. App. Lexis 11025

lio

Freeman v. State, 698 So. 2d 810 (Fla. 1997)

•25

Francis v. Franklin, 471 U.S. 307,105 S. Ct. 1965, 85 L. Ed. 2d 344 (1985)

In Re Winship, 397 U.S. 358, 90 S. Ct. 1068, 25 L. Ed. 2d 368 (1970)
Lynch v. Dolce, 789 F. 3d 303 (2nd Cir. 2015)

1

Ovestreet v. State, 629 So. 3d 125 (Fla. 1993)

31* ,36

Rompilla v. Beard, 545 U.S. 374, 125 S. Ct. 2456, 162 L. Ed. 2d 360 (2005)

36-39

Sanchez v. Flasec'y DOC, 2019 U.S. District Lexis 61601...........................

1

Sandstorm v. Montana, 422 U.S. 510, 99 S. Ct. 2450, 61 L. Ed. 2d 39 (1979)r.#$?.$W

V

f«

CASES

PAGE(S)

State v. Richardson, 915 So. 2d 86 (Fla. 2005)

Ji,, 39-30

Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984).-!?:#3^
Teague v. Lane, 489 U.S. 288, 104 S. Ct. 1060, 103 L. Ed. 2d 59 (1989)
U.S. v. Gispert, 864 F. Supp. 1193 (S.D. Fla. 1994)
U.S. v. Otero, 502 F. 3d 331 (3rf Cir. 2008)

3k
*39-38

40

U.S. v. Thompson, 756 F. Supp. 1492 (N.D. Fla 1991)

37

U.S. v. Smith, 856 F. Supp. 665 (S.D. Fla. 1994)

37

Whitmore v. State, 147 So. 3d 24 (Fla. 1st Dist. 2013)
Williams v. Swartout, 2014 U.S. App. Lexis 20412

36
3 0,3/

Wilson v. Sellers, 2018 U.S. Lexis 2496

36

Wright v. State, 691 So. 2d 1140 (Fla. 1st Dist. 1997)

lb

*

*

t

vi

f \

*

CONSTITUTIONAL AMENDMENTS

?cK°>eh)

Fifth Amendment U.S.C.A
Sixth Amendment U.S.C.A
Fourteenth Amendment U.S.C.A
RULES
'Oe.TAckei

U.S. Supreme Court Rule 29

Proof oF 5erUiC£

M/.M4

Fla. r. Crim. R 3.850

/V®

Fed. R. App. R 22
STATUTES

30,31^1,3ft

Title 28 U.S.C. Section 2253

b^VM^fc-34 ;

Title 28 U.S.C. Section 2254

^«,XcxeV\e.<) ?roef oF- Settee

Title 28 U.S.C. Section 1746

b

Fla. Stat. 775.084
OTHERS

Fla. Standard Jury Instruction 15.1.................................................................... S,!3
16B C. Wright, A. Miller DE. Cooper Federal Practice £ Procedure §4026, P. 386
(2d Ed. 199$i...................................................................................................

Vll

3Z

>

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
PETITIONER RESPECTFULLY PRAYS THAT A WRIT OF CERTIORARI
ISSUE TO REVIEW THE JUDGMENT BELOW
OPINIONS BELOW
The Opinion of the United States Court of Appeal, for the Eleventh Circuit,
appears at APPENDIX A to the petition and is unpublished.
The Opinion of the United States District Court, Middle District of Florida,
Jacksonville Division, appears in APPENDIX B and is reported at 2019 U.S. District
Lexis 61601.
I. JURISDICTION
The date on which the United States Court of Appeal, for the Eleventh Circuit,
decided my case was June 25.2020.
A timely petition for Rehearing and Rehearing en banc was timely filed on July
14. 2020. and denied by the Circuit Court below on September 14.2020. A copy of
those filings appears at APPENDICES C^AND N TO THE PETITION.
hM extension of time to file a petition for Writ of Certiorari was requestedj-byT this
petition is timely filed. \ ^

TLi\o't'\©K)/A^To No

yeX.

The Jurisdiction of this Court is invoked Title 28 U.S.C. Section 2254(1).
II. CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fifth Amendment due process clause; The Sixth Amendment Assistance of

1

'«

Counsel, Notice and Jury Trial Guarantees and;
The Fourteenth Amendment right to due process; Taken together commands 1)
effective assistance of Counsel at every Stage of a Criminal Prosecution and; 2) That
“Any Fact”, other than prior conviction that increases maximum Penalty for a Crime,
“Must be charged in an indictment, submitted to a Jury for determination and proved
beyond a Reasonable doubt.”
Title 28 Section 2253 and 2254 AVPeac*

at

V.

III. STATEMENT OF THE CASE
1. OVERVIEW
In September 18.2019. The United States Court of Appeal for the Eleventh
Circuit (hereinafter Court below), Granted Certificate of Appealability (COA) as to
Ground Eighth of the Twelve (12) grounds requested for Relief (APPENDIX D. 14-151
The Court specifically expressed that the issue to be decided on the Appeal is that
Defense Counsel failure to object to the Trial Court A) Crucial BB Gun factual omission
in two [Pharentetical] of the Jury instruction concerning deadly weapon, B) it's
impermissible substitution with the word “deadly weapon” and C) the recursive manner
in which the deadly weapon word was modified, that tipped the scales in factor of a
finding that the BB Gun was a deadly weapon^violating Fair Trial and due process
Constitutional Rights. See 28 U.S.C 2253(c)(3) and Fed. App. P. 22(b¥APPENDIX D.
14-151

1

*,

In doing so, The Court analyzed Respondents prior misrepresentation and
misconstruction of the clainyn which the State Courts and the district courts were
misleading. Thus, diluting the district^and state court's below/erroneous conclusions
based on Respondents false premises (APPENDIX B. 14-151
On June 25. 2020 The Circuit Court completely took a different course of Action
contrary to the COA order (APPENDIX A. 7-8) and Title 28 U.S.C. 2253 Proceedings
with erroneous conclusions that Sanchez claim a legal standard omission.
2. STATE COURT PROCEEDINGS
A. CHARGES. TRIAL AND APPEAL
Initially Petitioner was charged with three (3) Robbery Offenses. A Fourth
Offense Attempted Arm Robbery was added in an Amended information, was severed
from the others and form the basis of this review.
On that Four Count of the information, the State alleged that on February 21.
2008. Petitioner attempted to commit a Robbery with a deadly weapon^but without
describing the object forming the basis for the deadly weapon additional crime,
however, either the black revolver described by the victim or the piece of BB gun found
the next day. (Appendix E- IffC) t
Whereas, Police Reports, 911 call and the victim (Monica Pate) attested that an
Attempted Robbery was committed with a black revolver. (Appendix E-3)
On February 22. 2008. (The Next Day) Sanchez was arrested around the area and

3

a piece and a piece of BB gun was found in the back floor board of the passenger side of
his vehicle (APPENDIX E-4.5-71. The piece of BB gun was different in shape and
color from the black revolver described on the Police Reports, victim written statement
and 911 call (APPENDIX E. 3-7). (The piece of BB gun was in the form of a
semiautomatic pistol with a silver color on top of the barrel).
At trial, without notice and the state introduced the piece of BB gun, together with
circumstantial pictures of where and how it was found and co-defendant unreliable
testimony, as factual basis and crucial ingredient to prove the deadly weapon offense in
connection to the Robbery. (Appendix E 4.6.7.10.121
On cross-examination the victim was impeached as to her prior inconsistent
description of a black revolver and adamantly admitted the unrelated similarities of the
piece of BB gun in question. (Appendix E-12)
Sanchez testify on his defense that he did not use the piece of BB gun to committ.
Any crime and was only a broken piece (APPENDIX E 22-24)
On closing argument the prosecutor with a visceral intensity and incorrect
statement of law emphasized that even the Judge would agree in her instructions that BB
gun is absolutely a deadly weapon:
“BB gun is absolutely a deadly weapon if pointed and pull the
trigger. She could have bleed to death. ... The Judge is going to
read that instructions to you. You will take back.” (TR.280-

H

Appendix E-26JSoon after, the Trial Court instructed the Jury utilize the Florida standard Jury
instruction 15.1 that applied to Robbery. The instructions concerning deadly weapon
contains two crucial [Pharenteticals] that, with due process concerns, sets the elements
and guide the Courts as to how to instruct the Jury's to find the factual basis for the
deadly weapon crime charged:
“If you find that the defendant carried a [deadly weapon
described in the change] in the course of committing the
Robbery and that the [deadly weapon described in the charge]
was a deadly weapon, you should find him guilty of Robbery
with a deadly weapon.
But in doing so, the Trial Court hold the factual BB gun required modification in
the [Pharenteticals] and instead, impermissibly supplanted with deadly weapon word in
a recursive manner, the Jury was instructed that:
“If you find that the defendant carried a “deadly weapon” in the
course of committing the Robbery, and that 'the deadly weapon
was a deadly weapon' 'you should find him Guilty of Robbery
with a “deadly weapon”. (Appendix E 30.371
Then, the Jury was instructed on the legal standards of deadly weapon (Appendix
E 30.37)

5

■<3»-

Minutes after the Jury was sent for deliberations on the Attempted Robbery and
the deadly weapon findings. It took only 45 minutes to find both Guilty verdicts. In a
two phase Trial: Attempted Robbery and additional deadly weapon charged crime.
(Appendix E 331 R-3181.
Sanchez was sentenced to ta thirty (30) years in prison as an habitual felony
offender. (H.F.O) ? ?v> * * o awt

to

R A. S to*x . ft*! S.

.

On Appeal, with an appellate trial Counsel, Sanchez raised for the first time the
[Pharentetical] factual omission, its impermissible substitution and it's recursive manner
of modification in the Jury instruction, as a foregoing conclusion telling the Jury that the
BB gun is a deadly weapon and restrict them from consider, evaluate and determine the
piece of BB gun as a potential deadly weapon.fAppendix F1-61
Respondents, on the other hand, with the same assistance Attorney General here,
Thomas H. Duffy, did not dispute the merits of the claim. Instead contended that the
error was not objected at Trial, was not fundamental and therefore was prematurely
raised on direct appeal. Direct appeal was per curiam Affirmed. (Appendix F 8-111.
The Florida First District Court of Appeal (1 DCA) per curiam Affirmed the
Judgment and Sentence (Appendix F12-131.
B, STATE POST-CONVICTION PROCEEDINGS
Thereafter, appearing Pro se, petitioner filed a timely Fla. R. Crim. P. 3.850
Motion in July 27. 2011. An amended motion was filed on June 28.2012. raising

6

twelve (12) grounds in total of ineffective assistance of Counsel. (Appendhr G 1-14)
In ground seven (7), the issue Petitioner U/<vS; granting of COA in the Circuit
Court below, Petitioner claimed that his Trial Counsel failure to object to the Trial Court
factual omission of the piece of BB gun in the [Pharentetical] of the Jury instruction,
with foregone Guilty conclusions.
On July 10, 2014, the State responded that because the Jury was legally instructed
on the law regarding deadly weapon, defendant failure to demonstrate legal deficiency.
As to ground one of his Rule 3.850 Motion Petitioner claimed that even though
trial Counsel object on withhold adjudication bases, Trial Counsel in Mav 2009
sentencing hearing was prejudicially ineffective for to object to H.F.O. Sentence on the
Ground that the State rely on a prior offense in which “Probationary Period was
completed” together, as a key component factor, with a withheld

adjudication that,

“Florida and Federal Courts has recognized those prior offenses to be a non-existed
conviction for H.F.O. purposes. (Appendix G 2-3. E 38-431
Therefore, the trial court ruled on the withholding and adjudication issue only,
without the key component factor of “completion of probation.”
The Post-Conviction Court denied re-sentencing based on, With more y. State.
147 So. 3d 24.25 (Fla. 1st DCA 2013). a Florida First DCA case law that came out Four
(4) years after Trial Counsel challenged conduct, on sentencing hearing in 2009. was to
be evaluated. (Appendix 12-31,

7

*• *

In ground Fourth of his Rule 3.850 motion, Petitioner claimed Trial Counsel
failure to file a Motion to suppress “in” and “out” of Court identification, arguing in
particular that the Prosecutor brought the victim to the Jury selection process and
pointed out who Petitioner was for recognition purposes at trial. Appellant elaborated
that regardless of a prior tainted identification in a photo line up, the victim never saw
Petitioner in person prior to Jury selection simply because he was not the robber and the
contested issue at trial was identification. (Appendix G 4-5).
As to Ground ten of the Rule 3.850 motion, Petitioner claimed Trial Counsel
failure to call an expert to prove the Jury the inoperability of the irrelevant piece of BB
gun introduced at trial, by the state to prove the deadly weapon element of the crime,
arguing that such fact would create a well founded reasonable doubt that could have
change the outcome of the BB gun/deadly weapon judgment and sentence. (Appendix
G 8-91.
In ground eleven petitioner claimed a conflict of interest because his lawyer
helped Sanchez co-defendant/state join continuance of the case where the court clearly
was against it,on the ground that it would create conflict with Petitioner speedy trial
demand. Petitioner further argued that such continuance in the case prejudice the defense
because it “gave the state additional (eight (8) more months) time to broke a deal with
co-defendant to testify and produce a detrimental testimony against petitioner at trial. In
addition, Petitioner contended that even Trial Counsel recognize his own mistake at trial

8

when he told the Jury “without co-defendant the State has not case, because he (co­
defendant) has to tie everything together. (Appendix G 9-12)
After accepted the legal sufficiency of the claims four, tenth and eleventh on
March 25.2014. the court asked the state to response. The State did it on July 14.2014.
(Appendix G 151. Petitioner reply to State Response. (Appendix G 16-281
Nevertheless, the trial court backtrack all it's prior rulings and parties responses
therein, and ordered that those grounds need to be amended within sixty days as legally
insufficient. (Appendix H 1-14)
Sanchez timely comply September 29.2015. with the Amended order.
(Appendix H 5-23)
Nevertheless, the Post-Conviction Court denied grounds four, tenth and eleventh
for failure to comply. (Appendix 1-21
On Appeal, Sanchez presented the Appellate Court proof of his compliance
including the Post-Conviction Court docket sheet receiving such document. Respondents
do not contest anything on the Appeal (APPENDIX 13-141. The Appeal Court per
curiam Affirmed on all grounds on June 1.2016. (Appendix J -15)
C. Federal Habeas corpus proceedings in the United States District Court.
Clear on any time, Jurisdictional and Procedural Bars, Petitioner on November 2.
2016. file a Section 2254 Petition for writ of habeas corpus relief, in the United States
District Court, Middle District of Florida, Jacksonville Division, raising eleventh claims

of ineffective assistance of trial and Appellate Counsel. (Appendix K1-14)
As to ground eight, keeping the same factual foundation of the claim (thereafter
granted COA)^ Petitioner specifically asserted^hat the State Court unreasonable applied
Strickland Federal Law and unreasonable applied the facts of the case in light of the
evidence presented in the Post-Conviction Proceedings»that Trial Counsel failure to
object to the trial court; factual omission of the piece of BB gun in the Pharenteticals;
failure to instruct the Jury as to how to evaluate the Broken piece of BB gun as a
potential deadly weapon at Trial; and the [Pharentetical] impermissible modification in
the Jury instructions invaded the Jury province by tipping the scales in favor of a finding
BB gun as a deadly weapon, which is an error of Constitutional dimension (APPENDIX
K 8-9).
Respondents, on the other hand once again twisted the presentation of Petitioner
claim in a way that the District Court believed the claim to be a failure to ask that the
Jury should have been told that a BB gun cannot be a deadly weapon. (Appendix K 1819)
Thereafter, Petitioner reply to that response and specifically pointed out
Respondents misrepresentation of facts, laws and evidence that missed the Principal
Point of the Claim (Appendix K 26-27).
Nevertheless, the district court without report and recommendation—'though
properly recognized the substance of the claim (APPENDIX B 40-lines 5.6.7 and B

10

•»-

41 line 16-17) that the Jury instruction should have specifically included term “BB gun”
in the [Pharenteticals] as the weapon the state introduced as a bridge to prove the deadly
weapon element of the crime charged; that the Jury was never instructed to evaluate
and decide whether the piece of BB gun “was” or “was not” a deadly weapon based on
the facts, law and Petitioner actions in the case and that Sanchez properly exhausted the
claim as it is — denied habeas corpus relief based on Respondents false promises and
misrepresentation of the claim. (Appendix B 40-41)»
On ground two petitioner claim that the State Post-Conviction Court discriminate
and declined to Rule on Three federal claims on ineffective assistance of Trial Counsel
to which; ground four

failure to object to in and out of court identification;

ground ten — failure to call expert in concern to the inoperability of the BB gun
presented as a deadly weapon at trial; and ground eleven—conflict of interest.
(Appendix K 2-3) *
Citing Federal Law specifically dealing with the mailbox rule subject, Sanchez
ask the district court for Federal Review on the adequacy of the State Procedural Bars,
unfairly imposed to his Strickland Federal claim, based on false premises. To Review
those claims de novo due to state court refusal to Rule on (Appendix K 2-3).
Respondents for their part, argue that petitioner never amended those claims,
(Appendix K-161 but ironically it's own records filed in the district court, contains
Sanchez amended compliance mailbox Rule to those three (3) Federal grounds received

11

in the Post-Conviction Proceedings by the State Court (Respondent exhibit to the district
court document 23-23. page 56 of 86-Page Id.1775 (Appendix H 5-23) „
Petitioner reply^in explicit terms with law, facts and evidence^ pointed out this
feature. (Appendix K 23),
Ignoring such evidence, facts, law and the constitutionally of petitioner
Strickland Federal claims, the district Court simply labeled the issue to be merely an
error of state Post-Conviction Rules and declined it's Federal inquiry on the palpable
discrimination by the state court of three (3) Federal claims (Appendix B 17) *
On ground three, Petitioner claimed that the state court unreasonable applied the
federal holdings of Strickland, retroactive applications and ex Post facto Rules in order
to summary denied a prejudicial ineffective assistance of Counsel claim for failure to
object to H.F.O. sentence in May 15.2009. based on a prior offense that does not
constitute a conviction for H.F.O. purposes under state and federal law. (Appendix K 5-

IL
In particular, petitioner asserted that the state court judged trial Counsel
challenged conduct in May 2009. with a case law that come out Four (41 years after
the fact in 2013. Whitmore v. State. 147 So. 3d 24-25 (Fla. 1st DCA 20131 Contrary to
and unreasonable to the Strickland strick holding that a Court must evaluate and Judged
Counsel performance based “on the facts of the particular case, viewed as of the time of
Counsel challenged conduct. Strickland v. Washington. 466 U.S. 668. 690.104 S. Ct.

20 52. 80 L. Ed. 2d 674 (1984): and against ex post facto and retroactive application.
(Appendix K 5.6. 7.23.24.25-E 38-43).
Without deciding the questions presented, the district court merely replicated and
stacked the state court unreasonable conclusions and federal laws misapplications.
(Appendix B 18-201
D. RULING BELOW.
On September 18.2019fThe United States Court of Appeal, for the eleventh
circuit granted COA as to ground eight (8) (of eleven claims presented therein) that trial
Counsel failure to object to the [Pharentetical] factual BB gun omission in the Jury
instruction, it's impermissible substitution for the “deadly weapon” word in a recursive
manner of modification. In doing so, the court below in specific terms:
First, instructively compared the Florida Standard Jury Instruction 15.1. used
as a model by the trial court, to the Jury instruction unreasonably given in the case at
trial, in order to clearly view the factual withholding [Pharentetical] error complained,
(Appendix D. 14-15)^ UJ itk

iT'i

Goitrr^ 5u^es Tu^/iAodiiM t

Second, the Circuit Court order expressed point blank and cast out Respondents
previous misrepresentation of the claim, it's false premises of facts and unreasonable
conclusions^ in which the United States District Court and Post-Conviction Courts were
previously misguided and lulled to Review the Claim. (Appendix D 14-151 * ...
Vk.e 'vuWvT CootT
ConCVvi'avQn €$-

PoelUeF, mv 'tVvt *i«SA?PfeJv6A*i!

^T'svrY^Y^S 'CkTvOt.'aSion ms-hvtTiortSy tUp

13

kou/To

define or what constitute a deadly weapon” correcting any “confusion of deadly
weapon definitions” (Appendix A. 7-8)*
Nothing was said as to the factual omission of the piece of BB gun, and the crucial
impermissible substitution with deadly weapon word^in a recursive manner of
modification, however, (Appendix A. 7-81.
Thus, misapprehending and overlooking the COA explicit terms in contrary to
title 28 U.S.C. 2253 (c)(3): and Fed. R. App. P. 22(b). it's clarification of the claim,
facts and law, Petitioner evidence to support and federal authorities that resolved
previously issues on identical situations.
On ground two of his COA petition (APPENDIX M 1-1 Ok Petitioner asserted
that on one hand,the district court limited it's Section 2254 scope of review by declined
to Rule on the adequacy of the state court astonishing procedural dismissal based on the
false premises, that Petitioner never amended it's claims—as ordered to do so, and in
contrary to the evidence he presented in support thereof,discriminating against
Petitioner three (3) Strickland Federal Claims. (Appendix M 3-5K
And that, on the other hand, the district court exceeded the Section 2254 scope of
review by framing the issue and search for additional non-disputed factors to denied the
claim. (Appendix M 3-5)«
The circuit court nevertheless, first rephrased the word “prior to” for “following”
in the district court order with the conclusive meaning of “untimely” filed Amendment,

n

(Compare APPENDIX B 17 f^and banked it's COA denial on the erroneous district
court unbalanced conclusions of 28 U.S.C. 2254 proceedings, thus^entering. icnerit
determination^rather than enter the debatability analyzes of COA, based on evidence,
facts and law. (Appendix D 6. 7« B 17)«
As to ground three of his COA Petition, Petitioner presented, the circuit court
below, the questions that the district court failure to resolve as to whether the:
“State Post-Conviction Court unreasonable applied Strickland.
Retroactive and ex-post facto laws by summary, denied a
claim of Trial Counsel failure to object to H.F.O. sentence in
May 2009 sentencing hearing —with a Florida 1st DCA case
law that came out four (4) years (in 20131 after Trial Counsel
challenged conduct? (Appendix M 6-9).
Noted and avoiding the questions presented the circuit court below at the outset
entered a merit determination, by searching for additional non-disputed grounds and
case law to denied COA:
First, the Circuit Court framed the issue to be merely an imposition of Probation,
rather than completion (Appendix B 19 and D-8 and E 38-43) as the evidence supports,
to which is the key factor analyzes for determined such issue and in which state and
Federal laws for decades has been explicitly clear on this point, and;

15

Second, to fit that non-disputed groundjthe circuit court search for a distinguish
inapplicable, and predated-2009 case law N c4 C\Te.jy (Appendix B IS and D-81
and then justify the district court denial citing the distinguish case law, State v.
Richardson. 915 So. 2d 86.89 (Fla. 2005). that dealed with “imposition of probation”
only, rather than “completion of probation.”
Thus, exceeding the scope of COA analyzes by inverted the Section 2253
statutory course and order of operations, deciding the merits of the appeal first, rather
then enter a debatable inquiry, then denying COA based on the new frame-search
artificial grounds and it's actual merits. (APPENDIX B-1B D 8. E 38-431.
Certiorari review is essentially necessary based on the following reasons:
IV. COMPELLING REASONS FOR GRANTING THE PETITION
First and foremost, this case is of National and exceptional importance: for if
this honorable court not grant this Petition it would be a palpable Miscarriage of
Justice committed not only to Sanchez, but to a thousand, hundreds of thousands and
even millions of other similar situated defendants awaiting state trials, or collateral
reviews on State and Federal Courts, where deadly weapon is an additional charged
crime that increase sentence, in the state of Florida and many other states nationwide,
not only on Robbery offenses, but in burglaries, batteries, kidnappings, murders,
assaults......
Consequently opening a constitutional vault, that this honorable court in particular

K

has been guarded so hard and for so long, along with other courts nationwide, and
surrendering it's federal constitutional power and control to the states by given an
unjustifiable and illegitimate weapon to promote Injustice. Thus, trying all kinds of
trials “without having to prove the factual basis of deadly weapon offenses.
In another words, if this honorable court denied this petition, the state would have
the unusual an absolute constitutional federal power to control, introduce as a evidence
and manipulate and irrelevant and unrelated objects at State Trial (same as it did here)
— with whatever can stick view for deadly weapon purposes. Followed by the State
Trial Courts authoritarian Factual omissions in the instructions, Prosecutors
misstatements of Law and Trial Counsel significant silence — regardless of any Fair
Trial/Due Process fundamental and crucial requirements against factual bogus
convictions, just because down the line it can mask the constitutional factual violations,
by citing this case with it's illusory and artificial conclusions that, because the Jury was
given “legal explanations of how to define deadly weapon in General terms.”
Therefore, covering Trial Counsel failure to object to a crucial factual omissionsimpermissible substituted with recursive modifications, that carried hideous
connotations of guilty in a Jury instructions. Thus, making an obliterate outcast of the V.
VI and XIV amendments Constitutional Rights, rather than a boundary constitutional
protection. Winship-Apprendi infra.
Second and of paramount importance, is that leaving the circuit court decision as

n

it stand now, definitely would poison the public confidence in the judicial system, it's
conservative-democratic ideals reflected in this and other courts and the community at
large. For in-particular:
1. The existence of Title 28 U.S.C. S2253(c¥31: Fed. R. App. 22(b). with it's accepted
and usual course of COA proceedings, would be meaningless or void as the circuit court
below exemplary departure from it shows and;
2. Would destroy and transformed the constitutional fair trial, due process and
reasonable doubt sacred principles, entrusted and maintained so callously in the Judicial
System, to a disparatory or invalid tale of mockery that would serve just as a an
arbitrary/discriminating passing glance on innumerable offenses in which deadly
weapon is an additional and crucial charged crime to increase sentence. Giving the scene
of the Judicial system and proceedings as a whole an unreal quality and false sense of
Judicial protection.
In this vein, the after effects of not granting this Petition would consequently
result as a federal authority of fundamental change in the Law-of Title 28 U.S.C.
§2253(c)(3): Fed. R. App. 22(bt accepted and usual course of COA proceedings and the
legendary and vital role of the indispensable reasonable doubt bedrock standard in
criminal proceedings — and by extension as a Nationwide illegitimate excuse for the
state to bypass is burden of proof every fact of the additional deadly weapon charge
beyond a reasonable doubt.

IS

Third arid crucial, granting this petition would maintain uniformity with all United
States Court of Appeals, this court, district courts and even state courts, thus, avoiding a
significant palpable and inherit conflict in which other courts consistently has been
previously resolved the same (issue of deadly weapon) factual omissions, impermissible
substitution with recursive modifications in Jury instructions.
In sum, the Circuit Court below granted COA, but departed from it, as to failure to
object to the factual piece of BB gun withholding, it's impermissible substitution and
recursive modification that removed form the Jury the assessment of facts constituted
the deadly weapon additional charged crime, contrary to V, VI, XIV of U.S.C.;
APRENDIV. NEWYERSEY, 530 U.S. 446. 455.120 S. Ct. 2348.147 L. Ed. 2d 435
(20001: Sandstorm v. Montana. 442 U.S. 510.520.99 S. Ct. 2450. 61 L. Ed. 2d 39
(19791: > in re winship 397 U.S. 358.364.90 S. Ct. 1068.25 L. Ed 2d 368 (1970):
Bennett v. Graterford. 886 F. 3d 268.285-286 (3rd Cir. 2018) Linch v. Dolce. 789 F.
3d 303.309 (2nd Cir. 2015).
I.

Accordingly and all things considered, the bottom line of the issue here is that the
circuit court below departed from the accepted and usual course of 28 0«S. C S eC"
Ti OAC j2253procedings by overlooked, misapprehended and missed the principal point of
the appeal, Sanchez factual claim and the evidence presented (Appendix A. 7-8 and D.
14-15).

n

Sanchez never merely claimed A) an insignificant, single or just a simple state law
violation of B) confusing Jury Instruction that C) does not explain to the Jury the legal
standards of deadly weapon. (Appendix A. 7-81 as the circuit court equivocally ruled
(Appendix D. 14-15-COA Order).
Neither a minor single claim under state law that can be cured, nor water down
simply by legal choices, determinations and definitions of deadly weapon. Id.
What Sanchez always claimed, in which the COA order certify (Appendix D. 1415). was a substantial six amendment constitutional and prejudicial claim of
ineffective assistance of Counsel for failure to object of a fair trial/ due process series of
added-injury-to-injuryviolations OF uLhs^shiP-Vc«Te«£n<>i^
that culminated in a “complete removal from the jury the assessment of facts and piece
of BB gun”

obvTfe CT j irrelevantly introduced by the state as a factual ingredient

and crucial basis to prove the additional charged offense of deadly weapon-KTMr iAfCrfifl5£
PfcHM/ry.

(Appendix D. 14-15 and Part III (2)(A)(B)(C)(D) above).

In short and realistically, the Jury instruction viewed as a whole was sterile, or for
that matter lacking, of facts in concern to the piece of BB gun the state claimed to be
used in the attempted armed robbery.
And every effort in the book was solidly made (by the Prosecutor-Trial Judge and
because Counsel significant silence) to erase those facts from the Jury consideration and
tipped the scales in favor of a finding that BB gun is a deadly weapon. The Started Point

2.0

that triggered those series of fair trial/due process violations is;
1. The state irrelevant introduction, over objection, of a semi-automatic piece of
BB gun accompanied by unrelated to the Robbery photographs and inconsistent
testimony; whereas the victim and Police Reports clearly indicate that a Black
revolver was used to commit the Robbery (Appendix E. Ik whereas the
indictment failed to include in the body of information the BB gun factual Basis
(Appendix E. 21 (ApprEriPy 147 L. Ed. 2d at 440.441.446.; reiving on
Jones v. United States. 526 U.S. 227.243 (1999) that first constitutional
violation grows in importance by;
2. The Prosecutor visceral intensity in which he stressed the preordained idea, to
the Jury at closing argument,the even the trial judge would agree with his
opinion (and incorrect statement of Law) and would instruct them that BB gun is
absolutely a deadly weapon, in that he told the Jury:
“BB gun is absolutely a deadly weapon if pointed and pull the
trigger, she could have bled to death......The Judge is going to
read the instructions. You will take back. (Transcripts 280 Appendix El See Bennet 2018 U.S. App Lexis 4. 5.31. 32 that
Prosecutor/Trial Judge improper bonding or prediction
ultimately began to take a different tone when;
3. The Trial Judge, while failure to correct the Prosecutor lead off misstatement of

Zi

law and bonding prediction, (Bennett 2018 U.S. Lexis 51 echoed those by
factually omitted the piece of BB gun name in the [Pharenteticals] of the Jury
instruction, contrary to the factual basis the state introduced as a crucial
ingredient to prove the additional deadly weapon charge (Appendix E 30-37)
Apprendi 147 L. Ed. 2d at 441 (any fact other than prior conviction. ... has to
be submitted to a jury and proved beyond a reasonable doubt).
4. But, such factual withholding was just the sub-final-catalyst point in which the
factual question for the Jury was transformed to an affirmative suggestive
statement when; (ApprgHPl / Sandstrom. 442 U.S. at 520-24 (mandatory
presumptious violates due process^ The Judge told the Jury;
“If you find that the defendant carried a “deadly weapon”. ...
and that “the deadly weapon was a deadly weapon” you “should
found him guilty”. ... with a “deadly weapon” (Appendix E
30-371
Thus, cementing the Prosecutor lead off prediction to the teeth, including the
Final Words “you will take back” (APPENDIX E-261 For:
5. For the Judge did in fact sent the same erroneous instructions in writing^to the
Jury for deliberations (Appendix E-30.371.
Indeed, A perfect recipe for disaster, nonetheless, adding to that, trial Counsel
significant silence might as well create the perfect storm. Buck supra, 2017 U.S. Lexis

34. For there were too many violations, again and again, that passed before the Juror's,
without Counsel objections to go unnoticed or be taken as a mere wretched coincidence.
The converse is true.
At that point, even a Juror with a Preternatural grasp of the statutory deadly
weapon law would have lost his [her] grip after listening, 1) The Prosecutor bonding
prediction with the Trial Judge; 2) The Trial Judge failure to correct such lead off flat out
error; 3) The Trial Judge confirmation when it told the Jury “the deadly weapon was a
deadly weapon, you should found him guilty. .... with a deadly weapon”; and on top of
it; 4) Defense Counsel significant silence. Id at Bennett 2018 U.S. Lexis 5.31.32:
Buck 2017 U.S. Lexis 33-34.
Accordingly, creating a reasonable likelihood that at least in the eyes of the Judge,
Prosecutor and Trial Counsel the “Piece of BB gun was absolutely a deadly weapon.”
definitely, a mandatory presumption at least. See Sandstorm at 442 U.S. 515. For as it
turns out the Jurors were just a normal persons, with natural instincts. Not trained in the
puzzled of law. Nor there were told that have to judge the piece of BB gun facts in
concert with the legal standards of deadly weapon, to reach a verdict; consequently,
Guilty was just the handiest, obviously common and most natural reasoning for them to
pick. Particularly if Trial Judge/Prosecutor confirmed opinion,Human Nature spoke for
itself. tVv (\t uotxS cLfcftr. tUEMiTAU-t,

XI

A Foregone conclusion and order, nonetheless,/ for a conviction of an uncharged
and unproven additional crime. Winship supra. But none of the above was even
mentioned in the Circuit Court below order (Appendix A 7-8)
B.
Nevertheless, has any doubt to factually consider the piece of BB gun in the Jurors
minds by the wayward course the case had taken, the suggestive line of events and
vicious cycle of unleashing stream of packaged conclusions that BB is a deadly weapon,
such doubt was cast-out, killed on the spot, written off from their memory and cosigned
to oblivion by the legal determinations and definitions of a deadly weapon.
For the after the fact “Legal definitions of deadly weapon” has the same recursive
common denominator as the former ailing instruction when viewed in context., it tells
the jury;
“deadly weapon” this, “weapon” that, “deadly weapon”, “deadly weapon”......
(Appendix E 30-37)
Both carried with assertiveness the same hideous connotation, deadly weapon.
Both, lacked directly or indirectly the facts of the piece of BB gun the state
claimed to be used in the Robbery. (Appendix E 30-37)
Both, put it together amplified guilty cue, rather than cure sanitize or water down
the factual BB gun omission. Not even re-calibrated or balanced out at least.
It surely doesn't tender within it's body the certain and specific lack of the

Hi

«■

/

constitutional factual questions removed from the Jur^as to whether the piece of BB
gun “was” or “was not” a potential deadly weapon. Bennett,Sufir* at 285 (quoting Francis
v. Franklin, 471 U.S. 307, 105 S. Ct. 1965, 85 L. Ed. 2d 344 (1985) (under Federal Law,
“Language that merely contradicts and does not explain a constitutionally infirm
instruction will not suffice to absolve the infirmity. This is so even when other language
correctly explain the law.
Both, contains no specific and assertive factual information and sent the wrong
message to the Jury. Not a factual one, but a suggestive one. One of Guilty, however. For
it sent, not even a factual hint nor, even a tailored factual advertisement. It directs the
Juror's to reach a factualess deadly weapon verdict with Guilty suggestions.
(APPENDIX E 30-37) Sandstrom, Id at 520-24
Both, were so strikingly similar, that it was hard to differentiate from one to the
other, in the Juror's eyes, ears and mind. Thus, given them no room other than apply
both as part of the same unifying designed theme or elaborate variation made from a mix
of different components.
A flashback, endgame or ripple effect of the same factual omission with
mandatory presumption.
It was timely taken as if it carried means to an end. A fast ball in the game
strengthen the Prosecutor/ Trial Judge jointed opinion that BB gun is absolutely a deadly
weapon. For in context with the record and the instructions viewed as a whole/the Jury

Z5

' r*

was in explicit terms directed;
Prosecutor: “BB gun is absolutely a deadly weapon

The

Judge is going to read that instructions to you will take back”
(Transcripts 280-Appendix)
Trial Judge: “If you find that defendant carried a deadly
weapon.......And that the deadly weapon was a deadly weapon,
you should found him guilty.

with deadly weapon.”

(Appendix E)

in the same pattern the Judge continued:
“deadly weapon” this. ... “deadly weapon” that.... “weapon”
this and that......(Appendix El
Under those Prosecutor arguments and such instruction^ the Jurors was definitely
//

“not free to exercise it's collective judgment and to reject what it “did” or “did not” find
trustworthy of:
I. the piece of BB gun as a potential deadly weapon.
II. BB gun relevancy in contrary to the revolver describer by the victim and Police
Reports before Trial.
III. Victim credibility about the impeached inconsistency of black revolver versus
piece of BB gun A) it's different shapes and; B) it's different color, passed
before them at trial.

Z6

IY. The State evidence/testimony relevant or not to the piece the BB gun as the
Prosecutor claimed to be used in the Robbery.
V. Sanchez testimony on the stand that he did no use the piece of Bb gun to
committ any crime.
Ultimately, that Factual decisions should have been left to the Jury as the Sole
trier of facts. Not taken it out and replaced with recursive modifications conveying
guilty. Sandstrom supra Winship/Apprendi supra.
Simply put, viewed as a whole and in context with the Trial Record, the
instructions were too factually impotent, factually messy and too factually ineffectual To
balanced out a question for the Jury to consider as to whether the piece of BB gun “was”
or “was not” a potential deadly weapon.
In contrast, it only conveyed guilty or at least tipped the scales in favor of a
finding that a BB gun is a deadly weapon.

Such facts are more evidenced in the fact that the Jury shockingly took only 45
minutes in what was suppose to be a two phase deliberations; 1) one for Attempted
Robbery alone and; 2) for the additional weapon finding. (Appendix E 331
It was inevitable, because there was not factual equilibrium and the average
Juror's simply follow the Prosecutor and trial court continuous commands and Trial
Counsel significant silent. Federal case^thatconflicts with the circuit court below^ on

17

identical situations, confirms that;
C.
In Lynch Supra, the 2nd Judicial Circuit faced atmost the same identical situation.
Lynch Counsel requested a factual instruction “under state law”, on a Robbery with a
deadly weapon charge, that the Jury be charged with the factual necessary ingredient to
find that Lynch possessed dangerous instrument at the time of the Robbery. The trial
court refused to give the factual instruction.
In an appeal to the Section 2254 proceedings the circuit court found appellate
Counsel ineffective for failure to raise the preserved withholding factor in the instruction
as a defense to bogus factual conviction on deadly weapon. Regardless of the sufficient
evidence against him.
The only inconsequential differences between Lynch and Sanchez is that 1) Trial
Counsel objected and 2) in contrast Sanchez Counsel failure to object to the factual
withholding.
In Davis v. Strack. 2001 U.S. App. Lexis 23399. the United States Second
Circuit First declined the Respondents incorrect invitations to depart from 28 U.S.C.
2253 proceedings.and then held that a factual withholding instruction A) (Against
defense Counsel contentions) on JuS-frFt&tion with respect to a homicide charge, in
which B) he was entitled under state law occurred and C) with the effect to deprive
Davis entirely of his defense/on which he had significant possibility of prevailing.and to

Zg

ensure conviction. Further the court clarify that the factual withholding error was of
immense importance; not a minor error of state law in explaining the legal standards to
the Jury.
In Conflict with Davis, first ~T\\i Cac£oi4* Cov)ft" de&vcTeJ Fco Ai

28 U.S.C.

Proceedings (COA 14-15) then held, in contrary to the appeal, claim and evidence, that
Sanchez claims A) minor state law error in explaining the legal standards of deadly
weapon th the jury and B) Federal Court barred relief (Court Order at 7-8). Sanchez was
entitled to have his Jury factually instructed not only under instructional [Pharenteticals]
but under V. VI. VTV. Amend. U.S.C.: Apprendi. in re winship and Sandstorm supra,
according to the piece of BB gun facts of the case in context j A A/ d >

in wish he

had significant possibility of prevail* For the jury witnessed firsthand 1) the irrelevancy
of the black revolver described in police reports against 2) the piece of BB gun
introduced at trial in wish 3) the victim got caught testifying on impeachment (Appendix
E-12) 4) Sanchez testimony that he did not use that BB gun to committ any crime 5) the
obvious incapacity of the broken piece of BB gun as a Potential deadly weapon. ...
In Bennett v. Grateford. 2018 U.S. App. Lexis 7505 886 F. 3d 269: The United
States Third Circuit Court ON same double factor of mandatory presumptions * was
confronted with a prosecutor incorrect arguments as a matter of law compounded
instructional errors. Id at 275.©F’vice versa, trial Judge echoing prosecutor impropriety
that the Jury instructions Id at 288f That an accomplice or conspirator is equally guilty of

'Z°i

First degree murdeijthat Albeit single, under state law, relieved the State of it's burden to
prove the specific intent to kill factor of First degree murder, to the point that other
instructions does not cure the factual suggestiveness.
First the third Circuit Court declined the Respondents strange suggestions to
depart from the authorized and certified issue an the COA order under Title 28 U.S.
2253, Id at 866 F. 3d 280.
As explained above, Sanchez Prosecutor misstatements, predicted bonding and
visceral arguments were echoed in the trial court Jury Instructions tipping the scales in
favor of a finding that BB gun is a deadly weapon. (Appendix E 26.30.371 in which
the court departed from according to the COA terms (Appendix D-14-51 Bennett Id at
886 F. 3d 280.
In Dixon v. Williams. 2014 U.S. App. Lexis 11025. the United States 9th Circuit
Court resolved a situation in which the State Trial Court of Nevada charged a single
word from “reasonable” to “unreasonable” in “the Standard self defense Jury Instruction
under state law.” The Circuit Court concluded that such minimal charge made more
onerous for the defendant to prove his self defense theory. Regardless of the
overwhelming evidence of Guilty and the remaining instructions contradicting the
constitutional error “under state law.”
Lastly, in Williams v. Swartout. 2014 U.S. App. Lexis 20412. in a Section 2254
appeal

The United States 9th Circuit, the State Trial Court omitted the word “not” on

30

a single passage of a State Law Jury Instruction. The Circuit Court held that such
Factual error had an injurious and substantial influence on the Jury regardless of the
ample evidence of guilty, the Jury instructions as a whole contradicting that statements
and the trial court several attempts to rehabilitate the Jury-discovered ,

error.

Sanchez claim here is stranger than Dixon and Williams Supra, because there was
not deadly weapon overwhelming evidence and rather was ample factors diputed that
offense.
Overall,, the granting of this petition on the above ground is essentially necessary
and of national importance.
II.
Grant this Petition on this foregoing ground is also of National and exceptional
importance for

avoiding imminent spread of; miscarriage of justice nationwide to

other habeas Petitioners; poison the Public confidence in the Federal System of, Section
2253-COA Procedures, it's democratic ideal, it's principles reflected and the community
at large in witV conflict with other federal precedents.
In particular, because the adequacy of State Procedural Bars to the Assertion of
Federal questions......is not within the State prerogatives to decide; rather adequacy
itself is a federal question, Cone v. Bell. 556 U.S. 449.465-466.129 S. Ct. 1768.173 L.
Ed. 2d 701 (20091. and Federal Courts must carefully ascertain themselves and examine
state procedural requirements to ensure that they do not operate to discriminate against

31

claims of Federal Rights. Brown v. Wester R. Co. of Ala. 338 U.S. 294.298-299. 70 S.
Ct. 105. 94 L. Ed. 100 (19491.
In Addition, leaving the Lower Court decision as it stand now, would conflict and
allow other courts nationwide to sanction and depart from the accepted and usual
procedural course of:
1) 28 U.S.C. 2253-COA debatability analysis. Buck v. Davis. 137 S. Ct. 759.
197 L. Ed. 2d 1; 2017 U.S. Lexis 1429. and;
2) 28 U.S.C. 2254- Federal Habeas Corpus Proceedings. 16B C. Wright. A.
Miller S.E. Cooper Federal Practice and Procedure §4026. P. 386 (2d Ed.
19961 (Nothing “Risk that discretionary Procedural Sanctions may be
invoked more harshly against disavored Federal Rights

denying

[litigants] a fair opportunity to present Federal Claims); See also Bear v.
Kindler. 558 U.S.

130 S. Ct. 612. 620.175 L. Ed. 2d 417 (20091

(Justice Kennedy concurring).
Along with the above Federal Principles, Sanchez presented in his COA Petition
two interrelated Procedural Questions (Appendix M 3-51. Whether it was debatable for
the district court to:
First, exceed it's scope of Section 2254 - Federal Parties Presentation
Requirement and Look through methodology - by erroneously changing the course of
Sanchez substantial federal claim to fit a non-disputed factor, or additional reason

3&

(Appendix M 3-5-B-171 for subsequently;
Second, Limit it's Section 2254 scope of Federal Review-by removed itself from a
careful Federal assessment of the adequacy of the state court discriminatory and
arbitrary dismissal/denial based on artificial false premises of three (3) recognizable
Strickland/Federal Claims of ineffective assistance of Counsel (Appendix H 5-23. M 35} that;
Ultimately gives the Federal System as a whole an unreal quality and false sense
of Federal Judicial Protection with catastrophic Manifest Injustice and Conflicting
Consequences.
In Short, the heart and centerpiece of Sanchez COA request was the debatability
of the district court Procedural imbalanced misapplications of Section 2254 Scone of
Federal Review.
Nevertheless, without decided none of the Federal Questions presented, the
Circuit Court denied COA but it reached that conclusion only after essentially deciding
the Appeal on the merits. Buck Supra 2017 U.S. Lexis 1429 at 25.26.27-28,because
before anything the Circuit Court substantially and incorrectly re-modified the
facts/searching for additional reason to fit, or stack, the already erroneously
accommodated language and Section 2254 imbalanced misapplications of the district
court. For the Circuit Court;
On one hand, from the outset substituted the word “Prior to” in the district court

33

order for the word “following” the dismissal of Sanchez Rule 3.850 motion. A changing
language that in context implied an “after the fact” of dismissal, rather than “timely
amended” as it should be (compare Appendix B-17. Appendix D 6-7 and Appendix K
2-3 and H 5-231: then on the other hand, added the incorrect factual modification as
additional reason to fit the erroneous district court Section 2254 misapplications on the
merits/then justified the COA denial of Sanchez claim based on continuous artificial
adjudication of the actual merits (Appendix B-17. D 6-7. K 2-3 and H 5-23).
Contrary to the COA denial, and district court erroneous conclusions for that
matter, Sanchez never essentially claimed that; A) the State Court failure to applied a
State Procedural Rules that; B) following the dismissal of his Rule 3.850 he amended
three (3) grounds of the motion and C) the State Court ignored his Amendments
(compare Appendix B-17. Appendix D 6-7 and Appendix K 2-31.
Sanchez substance of his claims was that the state court A) deliberately
discriminate on B) three (3) Federal ineffective assistance of Counsel Claims-for failure
to; 1) object to in an out of Court identification procedures; 2) Call expert in concern to
the inoperability of the peace of BB gun used as a deadly weapon and; 3) Conflict of
interest-and C) based on the False premises that Sanchez failure to Amend.
(Appendix K 2-3 and H 5-23)
Word games definitely does not answer serious constitutional questions, however,
it only leaves the 28 U.S.C. 2253 proceedings with an unread quality and false sense of

3H

Judicial protection, poisoning the public confidence an the community at large. An
identical situation was decided in Cone v. Bell Supra, in which this Honorable Court
was prompted to Grant Certiorari on a Procedural Bar situation based on identical False
Promises, in which the Federal Circuit Court repeating the district court erroneous
banked conclusions considered itself barred from reaching the merit's of the claim. Id A
556 U.S. at 452,462, 466. (Appendix B-17)
Moreover, Contrary to the COA amplifications of the district court erroneous
banked conclusions here, Respondents in this case never asserted that the three (3)
substantial claims were merely state law violations that barred relief, Cone 556 U.S. at
469. indeed, the unique substantial posture of Sanchez Federal Claims were never barred
under state rules for failure to Amend (more than enough evidence supports Sanchez
timely Amendments) (Appendix H 5-231 nor those claims were decided in the State
Court, or any Federal Courts on the merits. De novo review and grant of Certiorari is
essentially necessary.
GROUND THREE
Public confidence Nationwide; Federal and State Courts uniformity; Justice and;
Judicial System democratic/conservative ideals would be preserved in granting the
Petition on this ground. For the Circuit court below Manifest Injustice in it's COA
Ruling speak for itself.'
Sanchez especially explained that the underlying question presented, debated but

35

evidently ignored by the district court;was that the State Court unreasonable “Judged
Counsel challenged conduct in 2009 with, Whitmore v. State. 147 So. 3d 24 (Fla. 1st
Dist. 2013). A four (4) years after the fact case law, that came out in 2013. and that
Counsel obviously could not have known or predicted in May 2009 sentencing hearing.
(Appendix M 6-9) Contrary to the holdings of;
Strickland Supra. 466 U.S. at 690 (A Court deciding an actual ineffective
assistance of Counsel claim must Judge and evaluate the reasonableness of Counsel
conduct based on the facts of the Particular case, viewed as to the time of Counsel
conduct); Lynch Supra. 789 F. 3d at 312 and; Sanchez addressed the facts that
Whitmore 2013 has not retroactive consequences on Sanchez case, because Sanchez
conviction and sentence became final and fully adjudicated in June 10. 2010. three (3)
years prior. Compare Teague v. Lane. 489 U.S. 288.104 S. Ct. 1060.103 L. Ed. 2d 59
(1989): > Brvan v. Warden. 787 F. 3d 253 (11th Cir. Fla. 2013): > Freeman v. State.
698 So. 2d 810 (Fla. 1997)
In this vein, the substantial issue under Strickland was that Trial Counsel failure to
object to A) an H.F.O. sentence that banked on a prior offense, for which “Sanchez
completed his Probationary Period,” that B) did not constitute a conviction under state
and federal law, for H.F.O. purposes (Appendix K 3.6. 7.23. 24.25. M 6-9) In that
Sanchez cited the Strick holding of, Ovestreet v. State. 629 So. 3d 125 (Fla. 1993): >
Wright v. State. 691 So. 2d 1140 (Fla. 1st Dist. 1997): > Allen v. State. 654 So. 2d

36

1

1027 (Fla. 1st DCA19951 and: > U.S. v. Gispert. 864 F. Supp. 1193 (SJD. Fla. 1994)
(holding that in Florida, the key component of prior offenses is the “completion of
probation,” together with withheld adjudication, does not constitute a conviction); U.S.
v. Smith, 856 F. Supp. 665 (S.D. Fla. 1994): > U.S. v. Thompson. 756 F. Supp. 1492
(N.D. Fla 19911
As a final contention, Sanchez asserted that “no other case law or precedent
existed, prior to May 15.2009 sentencing hearing, that contradict Overstreet principles
that a “completion of Probation” withheld adjudication constitute non-existed
conviction. (Appendix 'A\
But, the Circuit Court below obviously noted but mJ-fead of Correct the District
Court plain error—of banked duplicity of state Court unreasonable Strickland, ex post
facto and retroactive applications.: it
1. changed the substantial facts and legal key components of Sanchez claim from
“completion of probation” (Appendix B-18-20. D-81 to merely a “resulting
imposition of probation” then;
2. search for a^on-disputed, distinguish and additional case law, State v.
Richardson. 915 So. 2d 86 (Fla. 20051 that fits it's incorrect artificial re­
modification of facts (Appendix B 9-10. D-81. in order to;
;

3. Determine the appeal on the merits first, rather than enter debatable analysis.
Buck v. Supra Id at Lexis 1429 25*28.

37
■

prior offenses and C) anticipate the details the State would emphasize. In particular,
where Counsel had known that the State!
1. Intended to seek higher sentence by proving defendant had a significant history
of felony convictions under state law and;
2. Would attempt to establish this history by proving defendant prior convictions
and?/
3. introduce transcripts. This honorable court held that Counsel had duty to make all
reasonable efforts, under the circumstances presented, to obtain and learn what it
could about the prior offense the state would use to seek maximum penalty and
anticipate details the state would emphasize, even when he seek other mitigating
avenues. Same as Rompilla, Sanchez Counsel knew that the state (1) intended to
seek enhanced H.F.O. sentence (Appendix E 38-43) by proving two prior felony
offenses on of which constitute non-conviction.
(?.) Would attempt to establish this history by proving H.F.O. requirements to those
two prior convictions and;
tg) Introduce fingerprints and transcripts, and Sanchez Trial Counsel failure;
(a) Obtain a prior conviction file readily available at the courthouse were Sanchez
is to be sentenced (Appendix E 38-431
(b) examined and learn that Sanchez completed his Probationary Period and
withheld adjudication was imposed - on which constitute a non-existed

3^

ir

conviction on one offense (Appendix E 39-43) and;
(c) anticipate the detail of State arguments based on the “completion of
Probation” factor for H.F.O. Sentencing. Even tough he argue about withheld
adjudication only^ without the completion of Probation requirement.
(Appendix E 44-471
See also U.S. v. Otero. 502 F. 3d 331 (3rd Cir. 2008).
In Sum, the substantial ineffective Assistance of Counsel claim was never
resolved in the State Courts, United States District Courts and the Court below, de novo
review and granting of Certiorari is essentially necessary.
V. CONCLUSION
For the above mentioned reasons this court should grant the Writ of Certiorari,
Appoint Counsel for Petitioner in this Cause and Order full briefing.
Respectfully Submitted,

--S----

/s/
SIMONA. SANCHEZ
DC#J38918
Florida State Prison - Main Unit
P.O.Box 800
Raiford, Florida 32083

So

